<html>
<title> - CALLING ON THE GOVERNMENT OF GERMANY TO TAKE IMMEDIATE ACTION TO COMBAT SEX TRAFFICKING IN CONNECTION WITH THE 2006 FIFA WORLD CUP; ASSISTANCE FOR SMALL AND MEDIUM ENTERPRISES IN SUB-SAHARAN AFRICAN COUNTRIES ACT OF 2005; GLOBAL ONLINE FREEDOM ACT OF 2006; CENTRAL ASIA DEMOCRACY AND HUMAN RIGHTS PROMOTION ACT OF 2006</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
            CALLING ON THE GOVERNMENT OF GERMANY TO TAKE IMMEDIATE 
              ACTION TO COMBAT SEX TRAFFICKING IN CONNECTION WITH THE 
              2006 FIFA WORLD CUP; ASSISTANCE FOR SMALL AND MEDIUM 
              ENTERPRISES IN SUB-SAHARAN AFRICAN COUNTRIES ACT OF 2005; 
              GLOBAL ONLINE FREEDOM ACT OF 2006; CENTRAL ASIA DEMOCRACY 
              AND HUMAN RIGHTS PROMOTION ACT OF 2006 
=======================================================================

                                   MARKUP 

                                 BEFORE THE 

                      SUBCOMMITTEE ON AFRICA, GLOBAL HUMAN 
                      RIGHTS AND INTERNATIONAL OPERATIONS 

                                    OF THE 

                                 COMMITTEE ON 
                        
                             INTERNATIONAL RELATIONS 
                             HOUSE OF REPRESENTATIVES 

                            ONE HUNDRED NINTH CONGRESS 

                                  SECOND SESSION 

                                       ON 

                H. Res. 860, H.R. 4319, H.R. 4780 and H.R. 5382 

                                     --------

                                   JUNE 22, 2006 

                                     --------

                                Serial No. 109-173 

                                     --------

       Printed for the use of the Committee on International Relations 

                       Available via the World Wide Web: 
                  http://www.hollse.gov/international_relations 

                          U.S. GOVERNMENT PRINTING OFFICE 

28-368PDF                         WASHINGTON : 2006 

  For sale by the Superintendent of Documents, U.S. Government Printing 
    Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                          Washington, DC 20402-0001 

[TEXT NOT AVAILABLE REFER TO PDF]


</pre></body></html>
